          Office of the Inspector General
 Corporation for National and Community Service

                     Semiannual Report to the Congress
                                       for the period
                   April 1, 1999 - September 30, 1999
                                     Fiscal Year 1999
                                  Semiannual Report No. 2




As required by the Inspector General Act of 1978, as amended, this report describes our activities
and accomplishments for the second half of fiscal year 1999. Section 5 of the Act requires that
the Corporation's Chief Executive Officer submit this report to the Congress and the
Corporation's Board of Directors by November 30, 1999 (within 30 days of its receipt).
                               TABLE OF CONTENTS

EXECUTIVE SUMMARY .................................................................................................i

                                                                                                       ...
IG ACT REPORTING REQUIREMENTS .........................................................................in

AUDIT SECTION
   Financial Management .................................................................................................... 1
   Procurement Management ............................................................................................... 3
   Grant Management and Oversight ..................................................................................9
   Audit Resolution ..............................................................................................................
                                                                                                                              10


INVESTIGATIONS SECTION ...........................................................................................
                                                                                                                13

REVIEW OF LEGISLATION AND REGULATIONS ......................................................19

MANAGEMENT DECISIONS WITH WHICH OIG DISAGREES ..................................21

TABLES

    Table I              Inspector General Reports With Questioned Costs ............................... 24
    Table I1             Inspector General Reports With Recommendations
                         That Funds Be Put To Better Use ......................................................... 25
    Table I11            Summary of Audits With Overdue Management Decisions ................. 26
    Table IV             Reports Described In Prior Semiannual Reports
                         Without Final Action .............................................................................27
    Table V              Status of Recommendations On Corporation Management Issues ........ 29

FY99 PERFORMANCE INFORMATION
   Audit Performance Information ........................................................................................31
   Investigations Performance Information ........................................................................... 32
   Summary of OIG Obligations and Expenditures .............................................................34
           IG ACT REPORTING REQUIREMENTS

This table cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.


   Requirement                                                                           Page

 Section 4 (a)(2)     Review of legislation and regulations                                19
 Section 5 (a)(l)     Significant problems, abuses, and deficiencies related to the   Throughout
                      administration of Corporation programs and operations
 Section 5 (a)(2)     Recommendations with respect to significant problems,           Throughout
                      abuses, and deficiencies found in the administration of
                      Corporation programs and operations
 Section 5 (a)(3)     Prior significant recommendations on which corrective
                                                                                           27
                      action has not been completed
 Section 5 (a)(4)     Matters referred to prosecutive authorities                          18
 Section 5 (a)(5)     Summary of instances where information was refused               None this
                                                                                        period
 Section 5 (a)(6)     List of audit reports by subject matter showing dollar value
                      of questioned costs and recommendations that funds be put            12
                      to better use
 Section 5 (a)(7)     Summary of each particularly significant report                 Throughout
 Section 5 (a)(8)     Statistical table showing number of reports and dollar value
                                                                                           24
                      of questioned costs
 Section 5 (a)(9)     Statistical table showing number of reports and dollar value
                      of recommendations that funds be put to better use                   25
 Section 5 (a)(10)    Summary of each audit issued before this reporting period
                      for which no management decision was made by end of                  26
                      reporting period
 Section 5 (a)(l 1)   Significant revised management decisions                         None this
                                                                                        period
 Section 5 (a)(12)    Significant management decisions with which the Inspector            21
                      General disagrees



                                                 ...
                                                 111                     FY99 Semiannual Report No. 2
                                     AUDIT SECTION
The Office of the Inspector General Audit Section is responsible for reviewing financial,
administrative, and program aspects of Corporation operations. It carries out these responsibilities
by conducting the audit of the Corporation's annual financial statements, evaluating the
Corporation's management controls, auditing Corporation operations, and auditing individual
grants, contracts, and cooperative agreements fbnded by the Corporation. All OIG audit reports
are referred to Corporation management for action or information. Additionally, the Audit Section
advises and assists the Corporation in resolving audit recommendations. A list of the reports issued
by the Audit Section during this period can be found on page 12.


                                FINANCIAL MANAGEMENT

Audit of the Corporation for National and Community Service's Fiscal Year 1998
Financial Statements (OZG Audit Report 99-12)
As required by the Government Corporation Control Act (3 1 U.S.C. 9101 et seq.), OIG engaged
KPMG to audit the fiscal year 1998 financial statements of the Corporation for National and
Community Service. The audit, conducted in accordance with government auditing standards,
included extensive audit procedures to overcome known material weaknesses and other
pervasive systems deficiencies. As a result, KPMG was able to issue an unqualified opinion on
the Corporation's Statement of Financial Position at September 30, 1998; however, due to
deficiencies in the Corporation's financial systems and management's inability to explain certain
adjustments made to the accounting records, KPMG was unable to render an opinion on the
Statement of Operations and Changes in Net Position, and the Statement of Cash Flows for the
fiscal year.
The audit found that, although the Corporation has made some progress toward producing
auditable financial reports, serious financial management issues remain. KPMG reported that
eight areas of the Corporation's financial operations are materially weak: financial management
and reporting, the Corporation's general control environ~nent,~    grants management, financial
systems, the National Service Trust, fund balance with Treasury, net position reporting: and the
recording and reporting of revenue from reimbursable agreements. Systems, internal controls,
record keeping and accounting procedures in these areas were first reported as material
weaknesses in 1996.


3
 Control environment factors include commitment to competence, management philosophy and operating style,
organizational structure, and assignment of authority and responsibility. The control environment sets the tone of
an organization, influences the level of control consciousness, and provides the discipline and structure of an
organization.

4
  The report cites the Corporation's failure to properly adjust obligations for expired grants and other expired
obligations as well as errors in reporting results of operations. Material adjustments were required to correct the
financial statements for both of these conditions.


                                                          1                       FY99 Semiannual Report No. 2
                                                                                                   A UDITS

The financial management weaknesses resulted in the need to record material adjustments, ranging
from $1.4 million to $106 million, to the financial statements. Certain of the adjustments also affect
the Corporation's budgetary accounts and reports; for example, an adjustment of $106 million was
made to reduce the service award liability in the National Service Trust at September 30, 1998. The
Corporation's initial calculation of the service award liability was made on a very conservative basis,
assuming that all members enrolled as of September 30, 1998, had earned awards, and that all
awards earned would ultimately be used. Historical experience now indicates that not all member
slots result in earned awards, and only about 80 percent of earned awards will be used. Calculation
of the service award liability on a more realistic basis will provide the Corporation with a better
indication of the available Trust Fund surplus that should be considered in the annual budget process.

The report also reiterated5two areas of non-compliance with laws and regulations: the Corporation's
failure to establish an effective system to assess its internal controls and report as required by the
Government Corporation Control Act, and the Corporation's substantial non-compliance with
Federal financial systems requirements.

During the engagement, the auditors also noted certain matters involving the Corporation's internal
controls that were not considered material weaknesses or reportable conditions. We issued a
management letter, Recommended Improvements to the Corporation 's Internal Controls -Fiscal
Year 1998 Management Letter (OIG Audit Report 99-24) which discusses these conditions and
included 70 recommendations for corrective action.


Analysis of the Corporation for National and Community Service 's Net Position Balance as of
September 30,1997 and 1998 (OIG Audit Report 99-14)

In support of the audit of the Corporation's fiscal year 1998 financial statements (see above), OIG
requested that KPMG perfom certain procedures related the Corporation's net position balances.
This work was essential to produce auditable financial statements for fiscal year 1999. As a result,
the Corporation's financial statements were revised to reflect approximately $48 million of
adjustments to the component balances of net position at September 30, 1998.


Review of the Corporation's August 21,1999 Action Plan Progress Report
(OIG Audit Report 99-38)
During this Semiannual Reporting period, in compliance with the requirements established in the
House of Representatives Conference Committee Report accompanying P.L. 105-27, we issued three
reports on the Corporation's progress to improve its financial management. In the Committee


' See also OIG Audit Report 99-01, Audit of the Corporation S Fiscal Year 1997 Statement of Financial Position, issued
on October 9. 1999.


                                                             2                        FY99 Semiannual Report No. 2
                                                                                                A UDITS
Report, the Conferees required that the Office of the Inspector General review and comment on the
Plan and subsequent updates within 30 days of their submission to the C ~ n g r e s s . ~

Although the Corporation has reported continued progress on accomplishing tasks delineated in the
Action Plan, our assessments revealed that none of the nine goals identified in the Plan have been
attained, and important objectives remain to be completed under each goal.

In October we completed a more comprehensive review of the Corporation's progress and a review
of the Corporation's reported expenditures on Plan activities as of August 2 1, 1999. We plan to
issue this report in November 1999 (OIG Audit Report 00- 13).


                             PROCUREMENT MANAGEMENT

During fiscal year 1998 OIG audited the Corporation's procurement operations (OIG Audit Report
98-24, Audit ofthe Corporation 's Procurement and Contracting Processes and Procedures). That
audit revealed material weaknesses in the Corporation's award, monitoring, and oversight of its
contracts and cooperative agreements. The number, nature, and significance of the audit's findings
indicate that the Corporation's procurement process is vulnerable to fi-aud,waste, and abuse. Because
of the nature of the reported deficiencies, OIG began a series of audits of the Corporation's
individual contracts and cooperative agreements. These audits are intended to assess whether the
costs are allowable, adequately supported, and charged in accordance with the terms of the contract
or training and technical assistance agreements, and applicable laws and regulations. Results from
the first seven of these audits follow.


Audit of Corporation for National and Community Service Contracts No. 93- 743-1005 and 96-
743-1008 with Ogilvy, Adams & Rinehart (OZG Audit Report 99-07)

OIG engaged Cotton & Company, LLP, to audit the amounts claimed by Ogilvy, Adams & Rinehart
under two contracts with the Corporation to plan and implement a marketing campaign designed to
strengthen public awareness of national service and the Corporation's programs. The audit covered
the costs claimed under the contracts during the period fiom October 1, 1993 to September 30, 1996


  In the House of Representatives Conference Committee Report accompanying P.L. 105-276, the Conferees stated that
$3 million of the Corporation's fiscal year 1999 administrative appropriation was earmarked for funding financial
management reforms. The Conferees stipulated that within 60 days of enactment, the Corporation must submit to the
House and Senate Committees on Appropriation a detailed Plan for the expenditure of the funds and provide Plan
updates every 60 days on the use of the funds. The Corporation's OIG is to independently review and comment upon
the Plan and each update within 30 days of their submission to the Congress. OIG Audit Reports 99-17, 99-23,99-25,
and 99-30 contain OIG's comments on the Corporation's December, February, April, and June submissions,
respectively.


                                                           3                       FY99 Semiannual Report No. 2
                                                                                   A UDITS
under Contract No. 93-743-1005, and from October 1, 1996 to December 3 1, 1998 under Contract
No. 96-743-1008 ($4,842,296 and $2,062,547, respectively). The audit included tests to
determine whether costs reported to the Corporation were documented and allowable in accordance
with the terms and conditions of the respective contracts. OIG reviewed the report and work papers
supporting its conclusions and agreed with the findings and recommendations presented.

The auditors found that Ogilvy, Adams & Rinehart underbilled the Corporation by $17,042, net of
questioned costs, under the two contracts. The under billings resulted from Ogilvy's use of
provisional overhead rates that were substantially less than their actual rates. The auditors also
reported that Ogilvy, Adams & Rinehart:

       claimed direct labor, travel, and other direct costs that were unallowable and unallocable
       under the contract terms and conditions and the Federal Acquisition Regulation;

       did not maintain an accounting system that could identify direct and indirect labor costs or
       allowable and unallowable indirect expenses in accordance with the Federal Acquisition
       Regulation;

       billed the Corporation for some types of costs as "standard costs" but did not document in
       writing the calculation of the standard costs or support the reasonableness of the rate used
       by periodic comparisons to actual costs; and

       did not have adequate timekeeping procedures.

Ogilvy, Adams & Rinehart generally agreed with the findings and most of the recommendations.
The Corporation did not provide specific comments on the report.


Audit of Corporation for National and Community Service Contract No. 97- 743-1002 with
R. 0.W. Sciences, Inc. (OZG Audit Report 99-08)

OIG engaged Cotton & Company, LLP, to audit the amounts claimed by R.O.W. Sciences, Inc.
under a contract to provide labor support for the Corporation's wide-area network, automation help
desk, and Oracle development and maintenance support services. The audit covered the costs
($2,173,613) claimed during the period from January 21, 1997 through September 30, 1998, and
included tests to determine whether costs reported to the Corporation were documented and
allowable in accordance with the terms and conditions of the contract. We reviewed the report and
work papers supporting its conclusions and agreed with the findings and recommendations
presented.




                                                   4                    FY99 Semiannual Report No. 2
                                                                                    A UDITS

The auditors found that R.O.W. claimed costs for work:

       performed by individuals employed by temporary help agencies without obtaining the
       required prior written approval of the U.S. Small Business Administration and the designated
       Corporation contracting officer;
       performed by R.O.W. employees using higher subcontractor labor rates;
       performed by R.O.W. employees and subcontractors using contractual labor rates for
       incorrect labor categories; and

       performed by R.O.W. employees and subcontractors using labor rates not included in the
       contract or contract modifications.
As a result, we questioned $161,893 (7 percent) of costs claimed under the contract. In its response
to the report, the Corporation stated that it had reviewed the draft but did not have specific
comments. R.O.W. disagreed with the questioned costs related to the work performed by temporary
agencies. R.O.W. partially agreed with the questioned costs based on employee versus subcontractor
labor rates, incorrect labor categories, and erroneous labor rates.

Audit of Corporation for National and Community Service Contract No. 95- 743-1009 with
Biospherics, Inc. (OIG Audit Report 99-09)
OIG engaged Cotton & Company, LLP, to audit the amounts claimed by Biospherics, Inc. under a
contract to provide toll-free public access and other recruitment services for the ArneriCorps
program. The audit covered the costs ($4,475,214) claimed during the period from June 22, 1995
through October 3 1, 1998, and included tests to determine whether costs reported to the Corporation
were documented and allowable in accordance with the terms and conditions of the contract. We
have reviewed the report and work papers supporting its conclusions and agreed with the findings
and recommendations presented.
The auditors found that Biospherics, Inc.:
       claimed costs for work performed by employees at labor rates not included in the contract
       or contract modifications;
       claimed other direct costs as "standard costs" based on unsupported standard rates in lieu of
       billing other direct costs based on actual costs as required by the contract; and
        claimed costs for direct mailing services under a subcontract that was not approved by the
        contracting officer, as required by the contract.
As a result, we questioned $739,458 (17 percent) in costs claimed under the contract. Biospherics,
Inc. disagreed with the questioned costs. The Corporation did not provide specific comments on the
report.


                                                    5                    FY99 Semiannual Report No. 2
                                                                                      A UDITS
Audit of Corporation for National and Community Service Contract No. 95-001 with
TvT Associates, Inc. (OIG Audit Report 99-10)

OIG engaged Cotton & Company, LLP, to audit the amounts claimed by TvT Associates, Inc., under
a contract to provide assistance to the Corporation in developing and performing evaluations and
management studies of Corporation grants, programs, and activities. The audit covered the costs
($4,094,004) claimed during the period from December 28,1994 through December 3 1,1998 and
included tests to determine whether costs reported to the Corporation were documented and
allowable in accordance with the terms and conditions of the contract. OIG reviewed the report and
work papers supporting its conclusions and agreed with the findings and recommendations
presented.

The auditors found that TvT Associates, Inc., did not use contract-specified billing rates and claimed
labor, consultant, and other direct costs that were unallowable and unallocable in accordance with
contract terms and conditions and the Federal Acquisition Regulation. As a result, we questioned
$294,094 (7.2 percent) in costs claimed under the contract.

As part of the audit, the auditors requested that TvT provide written representations related to the
contract. However, TvT's July 20, 1999 letter failed to include one of the representations:
specifically, that no events had occurred subsequent to the audit period that would require an
adjustment to the amounts claimed by TvT under the contract. TvT representatives stated that,
subsequent to the audit, TvT submitted revised invoices to the Corporation. Cotton & Company
regards TvT's failure to provide all of the requested representations as a limitation on the scope of
its work, and qualified its opinion on the Schedule of Contract Costs.

In its response to a draft of this report, TvT asserted that the Corporation mismanaged the contract
and directed TvT to bill incorrectly under the contract. In its response to the audit report, the
Corporation indicated that it would address the issues raised in the report and TvT's response in its
final management decision.


Audit of the Corporation's Oversight and Monitoring of the Health Benefits Program (OIG Audit
Report 99-15)

OIG engaged PricewaterhouseCoopers, LLP, to audit and report on the Corporation's oversight and
monitoring of its health benefits program, administered by Outsourced Administrative Systems, Inc.
(OASYS). The audit covered the Corporation's oversight and monitoring practices of this contract
during the period October 1,1994 through September 30,1998. We reviewed the report and work
papers supporting its conclusions and agreed with the findings and recommendations presented.




                                                     6                    FY99 Semiannual Report No. 2
The auditors concluded that the Corporation does not adequately oversee and monitor the health
benefits program. The conditions leading to this conclusion included:

       The Corporation lacks formal policies and procedures to adequately oversee and monitor the
       services provided by OASYS.

       The Corporation does not perform annual compliance reviews of OASYS or perform
       adequate alternative procedures to review billed costs for accuracy and reasonableness.

       The Corporation does not provide OASYS with updated eligibility data on a timely basis or
       maintain a log of participant claimed appeals.

       The Corporation does not receive and review all management reports required under the
       contract.

In addition, the auditors found that the Health Benefit Analyst, assigned the responsibility for
oversight and monitoring of the program, lacked the clinical knowledge and experience needed to
perform all of the responsibilities of the position and inappropriately overruled decisions made by
the OASYS medical review team to deny payments of claims. The report discusses these conditions
in detail and provides other information related to the health benefits program.

In its response to a draft of this report, the Corporation stated that it agreed with the findings related
to performing oversight functions for OASYS and described planned corrective actions. The
Corporation disagreed with the findings related to activities performed by the Health Benefit
Analyst.


Audit of Corporation Contract No. 97-743-1001 with GS Tech, Inc. (OIG Audit Report 99-18)
OIG engaged Cotton & Company, LLP, to audit the amounts claimed by GS Tech, Inc., under the
indefinite-quantity portion of its contract with the Corporation to provide operation, maintenance,
repair, and other miscellaneous services for the AmeriCorps*National Civilian Community Corps
Southeast campus in Charleston, South Carolina. The audit covered the costs ($158,830) claimed
during the period from October 1, 1996 through February 28, 1999 and included tests to
determine whether costs reported to the Corporation were documented and allowable in accordance
with the terms and conditions of the contract. We reviewed the report and work papers supporting
its conclusions and agreed with the findings and recommendations presented.




                                                       7                     FY99 Semiannual Report No. 2
                                                                                    A UDITS
The auditors found that GS Tech, Inc.:

       billed for work performed by employees at labor rates that did not agree with rates in the
       contract or contract modifications;

       billed for services under the time and material portion of the contract that were included in
       the firm-fixed-price portion of the contract;

       was unable to provide copies of work order requests from the contracting officer's technical
       representative for some of the work performed under the contract; and

       was unable to provide documentation supporting its G&A rate.

As a result, we questioned $50,850 (32 percent) of costs claimed under the indefinite-quantity
portion of the contract. In its response to the report, GS Tech, Inc., disagreed with all questioned
costs. However, GS Tech, Inc., failed to provide evidence to support its arguments. The
Corporation did not provide specific comments on the report.


Letter Report on Review of ETR Associates Audits that Cover Corporationfor National
Service Cooperative Agreement Number CA95-06 (OIG Audit Report 99-19)

OIG engaged Cotton & Company, LLP, to audit costs claimed under the terms of a cooperative
agreement between the Corporation and Education, Training, and Research Associates (Cooperative
Agreement CA95-06). The cooperative agreement was effective for the period February 1, 1995
through April 30, 1998. Under the cooperative agreement, ETR Associates provided training and
technical assistance to the Corporation by developing, operating, and managing its National Service
Resource Center.

In planning the audit of the Corporation's cooperative agreement, Cotton & Company was required
to review and consider the audits of ETR Associates performed by its independent accountants,
Coopers & Lybrand, LLP, for fiscal years 1995 through 1997, and PricewaterhouseCoopers,LLP,
for fiscal year 1998. The audits were conducted in accordance with Government Auditing Standards
and Office of Management and Budget Circular A- 133, Audits of States, Local Governments, and
Non-profit Organizations.

Cotton & Company's review indicated that the Corporation's cooperative agreement with ETR
Associates was considered and tested as a major program under the Circular's requirements and that
direct costs related to the agreement were also tested. The auditors reported no findings or
questioned costs related to the Corporation's cooperative agreement as defined by Circular A-1 33
in any of the four fiscal years.
                                                        -




                                                    8                    FY99 Semiannual Report No. 2
                                                                                   A UDITS
Based on their review of the Circular A-133 audit reports and supporting workpapers, Cotton &
Company recommended that OIG rely on the reports rather than conduct a separate audit of the costs
claimed under the agreement. OIG reviewed the audit reports and the workpapers documenting
Cotton & Company's review. We concurred with the conclusion reached and recommended that
the Corporation use the Circular A-133 audit reports as the basis for closing out the agreement.



                   GRANT MANAGEMENT AND OVERSIGHT

The Corporation awards National and Community Service Act (NCSA) and Domestic Volunteer
Service Act (DVSA) grants to state and local governments, institutions of higher education, and
other not-for-profit organizations. Grantees are required, among other things, to expend hnds only
for allowable costs and to provide periodic reports to the Corporation to demonstrate programmatic
and financial compliance with the terms of the respective grant agreements. The Corporation is
responsible for ensuring that grantees comply with applicable laws and regulations related to the
administration of grant awards, including those related to Federal cash management requirements.

The Audit Section performs both audits of the Corporation's oversight of grantees and audits of
specific grants to assess whether reported costs were allowable under Federal regulations and
whether grantees complied with the terms and conditions of the award. During this reporting period,
we issued one report assessing the results of an audit of a Corporation grantee conducted under
Office of Management and Budget (OMB) Circular A- 133, Audits of Institutions of Higher
Education and Other Nonprojt Organizations.


Letter Report on Review of HANCI Audits that Cover Corporationfor National Service Grants
(OZGAudit Report Number 99-2 7)

OIG engaged Leonard G. Birnbaum & Company, LLP, to review the entity-wide audit report and
related audit programs and workpapers prepared by Simpson, Kling, Quarantillo and Frosolone,
PLLC, which covered Federal assistance programs administered by Health Association of Niagara
County, Inc. HANCI), for the year ended December 31, 1997. The review was performed to
determine the extent of reliance that could be placed on the work performed by HANCI's
independent auditor in the areas of internal control, compliance with laws and regulations, and
transaction testing.

Although the firm stated that it performed the audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and the provisions of Office of
Management and Budget (OMB) Circular A-133, Audits of Institutions of Higher Education and



                                                    9                   FY99 Semiannual Report No. 2
                                                                                      A UDITS

Other Nonpro$t Organizations, Birnbaum & Company noted several deficiencies in the audit work
including:

       The auditor used an outdated audit guide issued by the Corporation rather than the OMB
       Circular A-1 33 compliance supplement, which became effective for audits of entities with
       fiscal years ending after July 1, 1996;

       There was no evidence in the audit workpapers that tests were made to determine that
       HANCI provided its share of funds (matching requirement); that tests were made for
       compliance with the requirements for filing the Foster Grandparent Program Project Profile
       and Volunteer Activity Survey; or that tests were made for compliance with the requirements
       for filing the Senior Companion Program Project Profile and Volunteer Activiy Survey; and

       Despite knowledge of issues related to HANCI's performance of its AmeriCorps grant,
       which led to a mutual agreement to terminate the grant, awarded by the New York
       Commission on National and Community Service, and a separate review by the Commission
       of costs HANCI charged to the AmeriCorps grant, conditions which, in our view, indicate
       high risk, the auditor did not consider this risk in planning the audit and did not provide any
       discrete coverage of the ArneriCorps program.

Although we did not formally refer the firm to the State Board of Accountancy, we requested that
HANCI require the firm of Simpson, Kling, Quarantillo & Frosolone, PLLC, to complete these
compliance tests for the, as yet unreleased, audit of HANCI's 1998 financial statements and that the
auditors receive training on the requirements of OMB Circular A-133. Our separate report on the
audit of this grantee will be issued during the first quarter of fiscal year 2000.


                                   AUDIT RESOLUTION
Significant Management Decisions With Which OZG Disagreed

During this reporting period CNS issued two final Management Decisions with which OIG
disagreed. The first related to OIG Audit 98-02, Pre-award Financial Assessments of Grantees, OIG
did not concur with the Management Decision because the decision does not identify specific actions
the Corporation intends to take to address the recommendations. Instead, the decision vaguely
indicates management plans to do "something" in the future.

The second decision related to OIG Audit Report 98-24, Audit of the Corporation's Procurement
and Contracting Process. OIG disagreed with the Management Decision because the Corporation
proposes that the same personnel responsible for the deficiencies in procurement operations
disclosed in the report will be responsible for taking the corrective actions, without any indication
that these individuals (or anyone else, for that matter) will be held accountable for the serious


                                                    10                    FY99 Semiannual Report No. 2
                                                                                    A UDITS
mismanagement matters, will receive adequate training and supervision, or why they should be
considered capable of developing and implementing effective corrective actions.

In addition, OIG received a Proposed Management Decision (PMD) on our audit of two Corporation
contracts with Advanced Systems Technology Corporation (ASTEC). The Corporation's proposed
decision allows, by ratification, $716,236 of the $721,663 of questioned costs (99 percent). The
Corporation's primary justification for accepting the costs is that, while the Corporation and ASTEC
did not follow the Federal Acquisition Regulation in carrying out this contract, the Corporation
received and accepted the services, and thus, the govement obtained a benefit resulting from
performance of the unauthorized commitments. Although we reported, and the PMD lists, numerous
instances where Corporation staff did not follow proper procedures in administering the contract,
the PMD contains no information about how these management deficiencies will be effectively
corrected, and holds no one accountable for the mismanagement. OIG disagreed with the proposed
decision and referred it to the Corporation's Chief Operating Officer for a final management
decision.

Management Decisions on OZG Audit Reports With Questioned Costs

During this reporting period the Corporation made one final Management Decision on OIG Audit
Reports with questioned costs. In the report (OIG Audit Report 98-24, Audit of the Corporation 's
Procurement and Contracting Operations) we questioned $547 thousand in costs claimed under
Corporation contracts. However, $539 thousand of the questioned costs relate to a contract that was
referred to the U.S. States Attorney for civil recovery under the False Claims Act. As directed by
OIG, the Corporation's Management Decision on this audit did not address these questioned costs.
Consequently, $539 thousand of the $547 in questioned costs is not included in the statistics. As of
September 30, 1999 two management decisions on audit reports with questioned costs were overdue.




                                                   11                    FY99 Semiannual Report No. 2
                                                                                            A UDITS

                 AUDIT REPORTS ISSUED DURING THE PERIOD
                  APRIL 1,1999 THROUGH SEPTEMBER 30,1999

                                                                               Federal         Federal
Report   Issue                                                                 Dollars         Dollars
Number   Date                            Report Name                          Questioned     Unsupported

                                                                              (Dollars in thousands)

                  Audit of Corporation Contracts No. 93-743-1005 and
                  No. 96-743-1008 with Ogilvy Adams & Rinehart
                  Audit of Corporation Contract No. 97-743-1002 with
                  R.O.W. Sciences, Inc.
                  Audit of Corporation Contract No. 95-743-1009 with
                  Biospherics, Inc.
                  Audit of Corporation Contract No. 95-001 with
                  TvT Associates, Inc.
                   Audit of the Corporation's Fiscal Year 1998
                   Financial Statements
                   Analysis of the Corporation's Net Position Balance as of
                   September 30, 1997 and 1998
                   Audit of the Corporation's Oversight and Monitoring of
                   the Health Benefits Program

                   Audit of Corporation Contract No. 97-743-1001 with
                   GS Tech, Inc.
                   Review of ETR Associates Audits that Cover
                   Corporation Cooperative Agreement Number CA95-06

                   Recommended Improvements to the Corporation's
                   Internal Controls - Fiscal Year 1998 Financial Audit
                   Management Letter
                   Review of the Corporation's April 2 1, 1999 Action Plan
                   Progress Report

                   Review of HANCI Audits that Cover Corporation for
                   National Service Grants

                   Review of the Corporation's June 21, 1999 Action Plan
                   Progress Report

                   Review of the Corporation's August 21, 1999 Action
                   Plan Progress Report

                   TOTAL

         --         pp             --
                                    -




                                                       12                     FY99 Semiannual Report No. 2
                    INVESTIGATIONS SECTION
We began this reporting period with 24 previously opened investigative actions. During the
reporting period we opened 24 new investigative actions and closed 19. We had 29 investigative
actions pending at the end of this reporting period.


               HIGHLIGHTS OF INVESTIGATIONS CLOSED
                  DURING THIS REPORTING PERIOD


Grantee Comptroller Embezzles Funds & Steals Equipment - Receives 10 Years in Prison

OIG completed an investigation of a reported embezzlement at Workreation, Inc. (Workreation),
a Tyler, Texas, based grantee that received an ArneriCorps grant of approximately $575,000
from the Corporation for National and Community Service. During the OIG investigation, the
comptroller of Workreation confessed to embezzling money and other misconduct. The
comptroller confessed to embezzling approximately $12,230 during the period April through
December 1998 by preparing additional Workreation payroll checks, payable to himself, then
forging the names of the authorized signatories on the checks and subsequently depositing the
checks in his personal bank account or negotiating the checks for cash. To conceal the
embezzlement, the comptroller made fraudulent entries in the Workreation check register,
indicating that some of the checks were duplicates, issued ostensibly because the originals were
lost, and he then apparently destroyed some of the cancelled, duplicate checks that were returned
with the bank statement after payment.

The comptroller also confessed to making several purchases for his personal use from
Workreation vendors during the April through December 1998 time frame. The purchases were
paid for by Workreation with funds from the AmeriCorps grant. These purchases totaled
approximately $13,000. The majority of the non-consumable items purchased and stolen by the
former comptroller were recovered.

The comptroller pled guilty to all charges and the 114th District Court of Smith County, Texas,
sentenced him to 10 years confinement at a state prison, a fine of $5,000.00, and restitution of
$17,534.17. (99-018)

ThefC of Federal Funds - Court Judgement - Recovery

OIG completed an investigation and found evidence that a VISTA project director for Emmaus
House, and a VISTA participant, working jointly and with common intent, stole approximately
$4,600 of Federal funds. The evidence indicated the theft was facilitated by the continuance of
stipend checks to the VISTA member during an extended period of incarceration.


                   --   ~




                                                13                    FY99 Semiannual Report No. 2
                                                              INVESTIGA TIONS
The Criminal Division of the U.S. Attorney's Office in New York City declined to prosecute this
matter criminally. The Affirmative Civil Enforcement (ACE) section of the U.S. Attorney's
Office accepted our referral and pursued collection of the Federal funds.

The U.S. District Court, Southern District of New York, found in the favor of the United States
and ordered a judgement against Ernrnaus House in the sum of $133,346.28, plus post-judgement
interest. The court further ordered that this judgement be set aside as long as Ernrnaus House
paid the U.S. $5,000 within fifteen days of this judgement. Emmaus House paid the $5,000 to
the Financial Litigation Unit, Office of the U.S. Attorney, Southern District of New York, and
the $133,346.28 judgement was set aside. (98-004)


Employee Receives Payment from both Corporation and Corporation Contractor

OIG completed an investigation it initiated upon receipt of information indicating that a
Corporation employee worked several days for a Corporation contractor during a period of time
when she was also claiming on her Corporation time sheets to be working for the Corporation.

Our investigation determined that the Corporation employee had a signed subcontract agreement
with a Corporation contractor and had received payment from this contractor as reimbursement
associated with a training session.

In a sworn statement, the Corporation employee admitted being an independent contractor
working for a Corporation contractor. The employee further admitted signing her time sheets
reflecting she was present for duty at the Corporation for 12 days when in fact she was serving
as an independent contractor for those 12 days.

In a sworn statement the employee's supervisor admitted not following up on her employee's
activities and being unaware her employee had served as an independent contractor. The
supervisor certified the employee's inaccurate time sheets.

The U.S. Attorney declined to prosecute due to the low dollar amount involved.

As a result of our investigation, Corporation management suspended the employee, without pay,
for 10 days; however, Corporation management took no action to recover the 12 days
government salary paid to the employee while the contractor was compensating her. The
employee's supervisor received a letter of counseling for her failure to adequately supervise one
of her employees. Corporation management has not reported any action against the contractor
as of the end of this reporting period. (99-022)




                                               14                    FY99 Semiannual Report No. 2
                                                             INVESTIGA TIONS

Corporation Employee Assists Corporation Contractor with Sub-Contractor Recruitment

OIG completed an investigation where we found that a Corporation employee serving as the
Contracting Officer's Technical Representative (COTR) for a Corporation contract pre-selected
five AmeriCorps*Leader Coaches who were ultimately hired as independent contractors by the
Corporation's contractor. These individuals received a selection letter sent by the COTR before
the formal release of the Statement of Work to the contractor. One of the individuals was a
Corporation employee (see OIG Investigation 99-022 above).
The COTR provided a sworn statement wherein she admitted that she did not follow proper
contracting procedures and that she lacked knowledge of govemment contracting procedures.
As a result of our investigation, Corporation management suspended the employee, without pay,
for 10 days. (99-023)

Documents Backdated - Prosecution Declined - Pending Action by Management

OIG completed an investigation where we found evidence that a Director of a Corporation
Service Center, a Budget Analyst at the Service Center, and a Training Coordinator at the
Service Center, backdated three separate purchase requests. This was apparently done in an
attempt to enable them to obligate and ultimately expend fiscal year 1998 h d s beyond the date
the funds were available for obligation.
An Assistant U.S. Attorney (AUSA) with the U.S. Attorney's Office having prosecutive
jurisdiction reviewed this matter and opined that a criminal violation of 18 U.S.C. 1001, False
Statement, may have occurred. However, he declined to prosecute in lieu of administrative
action by the Corporation, requesting that he be informed of any administrative action taken as
a result of this investigation.
The above matter was referred to Corporation management on April 19, 1999, for administrative
action. Corporation management reported that disciplinary action against the employee was not
finalized as of the end of this reporting period. (99-004)

Fraudulent Enrollment - Possession of Counterfeit Documents - Prosecution Declined

OIG completed an investigation into allegations that an individual used a counterfeit social
security card to enroll in a state commission-funded AmeriCorps program. Our investigation
confirmed that the social security number on the card used by the former ArneriCorps Member
was assigned to another individual. Further, our coordination with the Immigration and
Naturalization Service (INS) disclosed the resident alien identification card used by this
individual was counterfeit. Based upon our coordination with INS, they arrested the individual
for violation of immigration laws and initiated deportation procedures.



                                               15                   FY99 Semiannual Report No. 2
                                                              INVESTIGA TIONS
This matter was presented to the U.S. Attorney's Office and the office declined to prosecute
based on the low dollar amount. The U.S. Attorney's Office also declined to pursue the matter
civilly, stating there was no real loss of funds concerning the educational award and, although
not legally entitled to be employed, the individual did actually perform service hours.

None of the expenses associated with the fraudulent enrollment will be charged against the
Corporation grant. Records maintained by the National Service Trust Fund were annotated to
prevent payment of an education award based upon the fraudulent enrollment. (99-021)


Attempted Travel Fraud - No Dollar Loss - Prosecution Declined

OIG completed an investigation involving allegations of travel fraud. The program director of
an AmeriCorps program (an employee of a Corporation grantee) submitted a request for travel
reimbursement that, if paid, would have been paid with Federal funds. This travel request was
false and included expenses incurred for personal travel. No Federal funds were lost inasmuch
as the attempted fraud was detected prior to payment of the claim and the Assistant
U.S. Attorney declined to prosecute because there was no loss. The grantee removed the
program director from her position. (99-013)


Misuse of US. Government Travel Cards - No Dollar Loss - Referred to Management

OIG completed an investigation involving misuse of U.S. Government travel cards. We found
evidence that a State Program Assistant at a Corporation State Program Office used her
American Express Government Travel Card to obtain cash advances disguised as charges for
food, beverages, and tips. We also found evidence that a Senior Program Officer at the
Corporation's Washington, DC Headquarters used her American Express Government Travel
Card to purchase jewelry and leather goods.

The State Program Assistant received a letter of counseling and the assistant's use of the travel
card is being monitored on a monthly basis for the next year. The Senior Program Officer's
supervisor discussed the matter with the Headquarters employee and determined that the
employee had made an "honest mistake" and that by sending payment "immediately" for the
purchase had acted properly after making the mistake. The Chief Operating Officer and the
Office of Administrative and Management Services developed procedures intended to strengthen
the review process for monitoring travel card activity. (99-014)




                                                16                   FY99 Semiannual Report No. 2
                                                              INVESTIGA TIONS
                                          -
Inaccurate Timesheets - No Dollar Loss Referred to Management

OIG completed an investigation involving allegations of falsification of timesheets. A
Corporation employee at a state office prepared and submitted inaccurate time sheets to reflect
he was working a five-day, eight-hour per day work week, when he was actually working four
days per week, ten hours each day. No Federal hnds were lost inasmuch as the employee did
in fact work the total amount of hours that were submitted via the time sheet. This matter was
referred to management for their use as appropriate. (99-017)


Alleged Misconduct of Corporation Employee and Relative

OIG received an anonymous letter alleging that a senior Corporation employee and the
employee's relative, who is an employee of a contractor providing services to the Corporation,
were engaging in "bigotry" and using government equipment to view pornography. The letter
further alleged that the relative uses Corporation telephones to make lengthy long-distance
telephone calls to his girlfhend during business hours.

The above matter and other similar complaints concerning the same individuals and office were
referred to Corporation management on May 6, 1999, for administrative action. Management
has not reported any type of action against the employee or the contractor as of the end of this
reporting period. (99-026)




                                                                     FY99 Semiannual Report No. 2
                                                                                      INVESTIGA TIONS

                         STATISTICAL SUMMARY OF INVESTIGATIONS


    Opened and Closed

    Number of Cases Open at Beginning of Reporting Period..............................                              24

    Number of New Cases Opened During This Reporting Period .......................

    Number of Cases Closed During This Period With
     . .         . .
    Significant Findings .........................................................................................

    Number of Cases Closed During This Period With
    No Significant Findings...................................................................................

    Total Cases Closed This Reporting Period......................................................

    Number of Cases Open at End of Reporting Period ........................................

I   Referred

    Number of Cases Referred for Prosecution During
    This Reporting Period......................................................................................

    Number of Cases Accepted for Prosecution During
    This Reporting Period ......................................................................................

    Number of Cases Declined for Prosecution During
    This Reporting Period ......................................................................................

    Number of Cases Pending Prosecutive Review ...............................................                        0




                                                                  18                           FY99 Semiannual Report No. 2
    REVIEW OF LEGISLATION & REGULATIONS
Section 4(a)(2) of the Inspector General Act requires the Office of the Inspector General to
review and make recommendations about existing or proposed legislation and regulations
relating to the Corporation's programs and operations. OIG recommendations are to address
the impact of legislation and regulations on the economy and efficiency of the administration
of the Corporation's programs and operations. OIG is also to make recommendations
concerning the impact of legislation and regulations on the prevention and detection of fraud
and abuse in programs and operations administered or financed by the Corporation.


                      REVIEW OF LEGISLATIVE MATTERS
Government Waste Corrections Act of 1999
OIG reviewed the Government Waste Corrections Act of 1999, concluding that it might
conflict with the IG Act in that it is susceptible to an interpretation that would allow agencies
to conduct audits that would overlap with traditional OIG audits. The Act concerns
"recovery audits" under which the Corporation seeks to identify and recover overpayments to
vendors and other commercial entities. The bill would include audits for recovery of
payments made that were not authorized by law, regulation or other applicable requirements.

Paperwork Reduction Act
OIG responded to a request of the President's Council on Integrity and Efficiency and of a
Congressional staff member for comment on a legislative proposal concerning OIG
independence and the Paperwork Reduction Act. OIG advised that, generally, to the extent
the Paperwork Reduction Act requires agency or Office of Management and Budget approval
of OIG information collection efforts, OIG independence is vulnerable. OIG proposed draft
language to a Congressional staff member to amend the Inspector General Act to obviate the
potential loss of independence caused by the Paperwork Reduction Act.

Report on Diversity
U.S. House of Representatives Committee on Appropriations report language included a
requirement that all OIGs funded under the Department of Veterans Affairs and Housing and
Urban Development, and Independent Agencies Appropriations Act report to the Committee
on issues of diversity in OIG staffing levels. In compliance with this requirement, we issued
our Report on Issues of Diversity on July 12, 1999 to both the House and Senate committees
on appropriations.

Other Legislation
OIG also reviewed and commented on various proposals to amend the Inspector General Act
of 1979, as amended; the Duncan Bill, a proposal to make all Inspectors General presidential
appointments with Senate confirmation; and the Dodd Amendments, which primarily
concerned the U.S. Department of State OIG.



                                                19                    FY99 Semiannual Report No. 2
            REVIEW OF LEGISLATION & REGULATIONS

                    REVIEW OF CORPORATION-PROPOSED
                        REGULATIONS AND POLICIES
Regulations

The Government in the Sunshine Act requires Federal agencies to conduct certain business
meetings in a manner that is open to the public. There are specific exceptions to this
requirement, and particular procedures to follow for closing and documenting a meeting
pursuant to an exception. Under the terms of the Sunshine Act, the Corporation is required to
promulgate regulations implementing the Sunshine Act and has not yet done so. The
Corporation's OGC agreed with this conclusion and the Corporation has drafted a regulation
to implement the Government in the Sunshine Act. During this reporting period, OIG
reviewed and commented on the proposed and final versions of the Corporation regulation.

Proposed Policies

During this reporting period, the Corporation proposed, and OIG reviewed and commented
on, new policies in the areas of: property management; public use forms clearance and
management; Internet and E-mail access and acceptable use; network and computer security;
program evaluation; procuring supplies and services; safeguarding sensitive information and
documents; maintenance of service years in Foster Grandparent and Senior Corps programs;
debt collection practices; financial disclosure; and the National Senior Service Corps field
manual.




                                                                   FY99 Semiannual Report No. 2
              MANAGEMENT DECISIONS WITH
                       WHICH OIG DISAGREES
This section of the OIG Semiannual Report describes significant management decisions
made during this reporting period, with which the Inspector General disagrees, as required by
Section 5(a)(12) of the Inspector General Act of 1978, as amended. Although some of the
matters discussed below are featured elsewhere in this Semiannual Report, they are repeated
here in order to demonstrate a pattern of response by the Corporation to serious issues raised
by OIG. In OIG's judgment, these actions, or inactions, continue a permissive management
control environment that fails to hold Corporation staff, grantees, and contractors
accountable for compliance with laws, regulations, and sound management practices.


TheB of Twelve Day's Pay Nets Ten Day Suspension

As reported in the Investigations Section of this report, a Corporation for National Service
employee was paid a daily rate for a period of 12 days by a Corporation contractor while
fully employed and paid a regular salary by the Corporation (page 14). The Corporation
suspended the employee for ten days (without pay). The Corporation made no attempt to
recover the ill-gotten money from the employee and has taken no action against the
contractor. The Corporation Contracting Officer's Technical Representative (COTR) played
a key role in obtaining the contract work for the employee, making her aware of the
opportunity prior to the COTR releasing the statement of work to the contractor. The COTR
was also suspended for ten days without pay. OIG does not agree with the actions taken
against the employees, believing them to be far too lenient. OIG also continues to
recommend action against the contractor that hired a Corporation employee as an
independent contractor.


Corporation Stance on the Need for Cost Reporting

During this reporting period, the Corporation implemented a new financial management
system. The "off-the-shelf' software system has an optional cost accounting module.
However, in response to OIG's recommendation that the Corporation implement, and
integrate with its financial management system, a cost allocation methodology (OIG Audit
Report 98-12, Follow up Review of Budgetary Controls), the Corporation responded that it
had decided not to purchase the optional cost accounting module. The Corporation stated, in
writing, that "we are not aware of any cost reporting requirements or standards that apply to
the Corporation" and that the Corporation has decided not to implement a cost accounting
system for fiscal year 2000.

OIG disagrees with this decision. Sound management practices and the requirement to
produce meaningful financial statements establish the need to report the costs of the
Corporation's programs. Further, the Corporation is under an ongoing Congressional
requirement to report on the expenditure of $3 million of its fiscal year 1999 administrative
appropriation that was earmarked for funding financial management reforms (page 2). In
                                        -       -   --




                                              21                    FY99 Semiannual Report No. 2
                               MANA GEMENT DECISIONS WITH
                                      WHICH OIG DISAGREES
addition, Congress has, for the second time, requested the General Accounting Office to
assess the costs of the ArneriCorps program. Finally, under the Government Performance
and Results Act, the Corporation is required, among other things, to report on performance
by program activity. The costs of these activities are essential in order to make meaningful
comparisons and to evaluate improvements over time.


Audit of Corporation Contract Results in Questioned Costs of $721,663 . . . Corporation
Disallows Only $S,42 7

OIG audited Corporation contractor Advanced Systems Technology (ASTEC) and
determined that, among other things, ASTEC provided services outside its contract and
supplied personnel at rates not noted in the contract. OIG therefore questioned a total of
$72 1,663. The Corporation, remarkably, determined to allow $7 16,236 of this total amount,
while disallowing a mere $5,427. In so doing, the Corporation ratified over 99% of the costs
questioned by OIG (page 11). OIG strongly disagreed with this proposed management
decision, which continues a long history of the Corporation allowing costs questioned in OIG
audits.


Corporation Requests that Grantee be Allowed to Obtain Its Own Documents from OIG

OIG opened an investigation predicated on certain allegations received about a
Congressional Hunger Center subrecipient. During the investigation, OIG investigators
copied numerous records of the CHC subrecipient. Subsequently, at the request of the
Corporation's Chief Operating Officer, OIG audited the grantee. In the audit report, OIG
questioned approximately $240,000 of CHC's claimed costs under the grant. Because CHC
lacked copies of its subgrantee's documentation, during audit resolution, the Corporation
requested that OIG permit CHC to access the documentation copied by OIG investigators so
that CHC might use the documentation to defend the questioned costs. The Corporation's
management decision on this matter is over due (due by July 2 1, 1999).


Corporation Procurement Practices

OIG audited the Corporation's procurement and contracting processes and procedures and
found pervasive weaknesses, several of which relate to core competencies of the procurement
staff. The number, nature, and significance of the audit's findings indicate that the
Corporation's procurement process is vulnerable to fraud, waste, and abuse. In its recently
released final management decision on the audit, the Corporation held no one accountable for
these serious management problems and assigned implementation of corrective measures to



                                             22                   FY99 Semiannual Report No. 2
                               MANAGEMENT DECISIONS WITH
                                                  WHICH OIG DISAGREES
the very same staff members found lacking in the OIG audit report. OIG strongly disagrees
with this response.


Appeal of Corporation Management Decision

In 1995, at the request of the then Chief Executive Officer of the Corporation, OIG audited
Corporation grantee ACORN Housing Corporation. OIG questioned $87,556 of claimed
grant costs. OIG determined that ACORN Housing leased space from affiliated corporations
and lacked adequate documentation to support the lease costs. OIG's audit report also
questioned administrative charges against the grant. The Corporation's ultimate decision,
after an appeal by ACORN Housing, was to disallow only $16,176 of the questioned costs.
Given the underlying facts in the audit report, OIG disagrees with this decision.




                                             23                  FY99 Semiannual Report No. 2
                          TABLE I
      INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS
                                                                --      --       -        -       -       -



                                                                                    Federal Costs
                                                               Number        Questioned       Unsupported

                                                                                 (Dollars in thousands)

       For which no management decision had
       been made by the commencement of the
                                                                        3        $1,509              $1 10
       reporting period

       Which were issued during the reporting
       period                                                        -
                                                                     5


       Subtotals (1 plus 2)                                             8


       For which a management decision was
       made during the reporting period                                 1    *

       (i) dollar value of disallowed costs


       (ii) dollar value of costs not disallowed                     -

       For which no management decision had
       been made by the end of the reporting
       period (3 minus 4)                                            -7

6.     Reports with questioned costs for which                          2           $955
       no management decision was made within
       six months of issuance

*In OIG Audit Report 98-24, Audit of the Corporation S Procurement and Contracting Operations, we
questioned $547 thousand in costs claimed under Corporation contracts. However, as requested by OIG,
the Corporation's Management Decision on this audit did not address $539 thousand of the questioned
costs due to a pending civil recovery action under the False Claims Act by the cognizant U.S. Attorney's
Office.




                                                   24                        FY99 Semiannual Report No. 2
                          TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                                        Number             Dollar Value


                                                                            (Dollars in thousands)

       For which no management decision had been
       made by the commencement of the reporting                          1                      $1,609
       period


       Which were issued during the reporting period


       For which a management decision was made
       during the reporting period

       (i) dollar value of recommendations that were
           agreed to by management
           based on proposed management action


           based on proposed legislative action


       (ii) dollar value of recommendations that were
            not agreed to by management


       For which no management decision has been
       made by the end of the reporting period
       Reports for which no management decision was
       made within six months of issuance

*This amount represents an audit adjustment to reduce the Corporation's service award liability at
September 30, 1998, which was agreed to by the Corporation during the fiscal year 1998 financial audit.
In Public Law 106-74, the Departments of Veterans Affairs, Housing and Urban Development, and other
independent agencies' fiscal year 2000 appropriations bill, Congress included language recognizing this
adjustment and rescinded $80 million previously appropriated to the National Service Trust.




                                                  25                          FY99 Semiannual Report No. 2
                        TABLE I11
  SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                                          Federal             Mgmt        Status as of
Report                                                   Dollars             Decision      Sept. 30,
Number                      Title                       Questioned            Due*           1999

                                                   (Dollars in thousands)

          Audit of Congressional Hunger
          Center Cooperative Agreement No.                     $233
          96ADNDCO99
          Evaluation of the Corporation's
          Monitoring and Oversight of                           NIA
          Cooperative Agreement Awarded to
          Congressional Hunger Center
          Review of the Corporation's Liability
          for Post-service Benefits Related to                  N/A
          Former Commission on National and
          Community Service Grants
          Audit of Contracts No. 96-743-1002
          and 97-743-1005 with Advanced                        $722
          Systems Technology Corporation

* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within 6 months of the final report issuance.

Status

1. Management Decision is overdue.
2. As discussed on page 10 of this Semiannual Report, OIG did not concur with the Proposed
   Management Decision. The Proposed Management Decision was referred to the Chief Operating
   Officer for a final determination.




                                              26                            FY99 Semiannual Report No. 2
                            TABLE IV
              REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                  REPORTS WITHOUT FINAL ACTION

                                                           Final
Report                                            Date     Action         Status Of
Number                 Title                     Issued    Due*          Final Action

         Audit of Oregon Youth                            12/23/97 Overdue - Final
         Conservation Corps                                          Action has not
                                                                     been completed
                                                                     and/or reported
                                                                     to OIG

         Review of the National Alliance
         for Veteran Family Service
         Organizations


         Review of Pre-award Financial
         Assessment of Grant Applicants


         Audit of West Virginia
         Conservation and Service Corps


         Review of Corporation
         Budgetary Controls


         Audit of the Navajo Nation


         Audit of the Youth Volunteer
         Corps of America


         Assessment of AmeriCorps
         Service Hour Reporting

         Assessment of Computer
         Difficulties Associated with the
         Year 2000



                                            27                FY99 Semiannual Report No. 2
                           TABLE IV - CONTINUED
                  REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                      REPORTS WITHOUT FINAL ACTION

                                                                            Final
Report                                                       Date           Action           Status Of
Number                        Title                         Issued          Due*            Final Action

98-23      Auditability Assessment of the                  7/8/98          7/8/99       Overdue - Final
           Corporation's FY97 Statement of                                              Action has not
                                                                                        been completed
           Financial Position**                                                         and/or reported
                                                                                        to OIG

98-24      Audit of the Corporation's                     9130198         9130199             3 .   ,.
           Procurement and Contracting
           Processes and Procedures


* Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final action must
be completed within 12 months of the report's issuance.


** The findings in this report were included in previous OIG audit assessments, as well as in the audit of
the Corporation's fiscal year 1997 Statement of Financial Position. The Corporation has incorporated its
corrective action on these reports into its "Action Plan," and considers all open corrective actions related
to auditability issues overdue.




                                                     28                        FY99 Semiannual Report No. 2
                                     TABLE V
                   STATUS OF RECOMMENDATIONS ON
                  CORPORATION MANAGEMENT ISSUES

                                             Number of      Corrective
                                         Recommendations     Action           Open
                                            in Reports*    Completed**   Recommendations



Corporation Financial Management

 Audit of the Corporation's Fiscal
 Year 1998 Financial Statements and
 Management Letter (OIG Audit
 Reports 99-12 and 99-24)
 Auditability Survey & Follow-up
 Reports (OIG Audit Reports 96-38,
 97-09,97-29,98-23,99-01, and
 99-02)

 Audit of the Corporation's
 Procurement and Contracting Process
 and Procedures (OIG Audit Report
 98-24)

Grant Oversight and Monitoring
 Review of Corporation Pre-Award
 Financial Assessment of Grant
 Applicants (OIG Audit Report 98-02,
 issued April 27, 1998)
 Assessment of AmeriCorps Service
 Hour Reporting (OIG Audit
 Report 98- 19, issued August 27,1998)
 Review of the Corporation's Liability
 for Post-service Benefits Related to
 Former Commission on National and
 Community Service Grants (OIG Audit
 Report 99-06, issued August 27, 1998)




                                         29                     FY99 Semiannual Report No. 2
                            TABLE V - CONTINUED
                       STATUS OF RECOMMENDATIONS ON
                      CORPORATION MANAGEMENT ISSUES

                                                       Number of        Corrective
                                                   Recommendations       Action            Open
                                                      in Reports*      Completed**    Recommendations


EDP Systems
 Assessment of Computer Difficulties                      21                 14                7
 Associated With the Year 2000 (OIG
 Audit Report 98-20, issued July 7,1998)

Audit Resolution
 OIG FY97 Semiannual Report 1                            -5                1                 -4
 (issued April 30, 1997)


Total


*Recommendations made in various OIG auditability studies related to conditions that had not been
corrected were, at times, reiterated in subsequent audit reports. We have reduced the number of
recommendations to account for these repeated recommendations. Therefore, the number of
recommendations in this table is less than the total of all recommendations made in the reports that are
listed.

**The Corporation has not implemented an audit resolution system meeting the requirements established
in OMB Circular A-50, Audit Resolution. Therefore, the information on corrective actions completed is
based on OIG records and the results of OIG follow-up audits when available.




                                                   30                        FY99 Semiannual Report No. 2
            FY99 PERFORMANCE INFORMATION

                       AUDIT PERFORMANCE INFORMATION

One of our strategic goals continues to be improving the quality and delivery of OIG services,
reports and other work products. OIG monitors the number of audit reports issued annually, and
their cost and their timeliness. The table below illustrates our performance during this reporting
period.


                               AUDIT PERFORMANCE STATISTICS
                                                                                   Fiscal Year



    Number of Audit Reports                                                26                22                 22
    Questioned Costs (in thousands)                                  $2,024            $1,776             $2,344
    Recommendation That Funds Be Put To
    Better Use (in thousands)                                              $0          $1,6 18         $106,000(')

    Costs per Audit Hour
       OIG Staff12)                                                       $75               $70                $68
       Contracted Services                                                $66               $66                $67
    Timeliness (3)                                                 223 days         223 days            173 days

    (1) This amount represents an audit adjustment to reduce the Corporation's service award liability at September
        30, 1998, which was agreed to by the Corporation during the fiscal year 1998 financial audit. In Public Law
        106-74, the Departments of Veterans Affairs, Housing and Urban Development, and other independent
        agencies' fiscal year 2000 appropriations bill, Congress included language recognizing this adjustment and
        rescinded $80 million previously appropriated to the National Service Trust.

    (2) OIG cost per hour estimate is based on the total salary and benefit costs for audit staff divided by the direct
        hours charged to audit assignments.

    (3) From inception of an auditheview through issuance of the final report, which includes a 30 day response
        period.




As shown above, the time needed to issue OIG audit reports dropped to an average of 173 days
in fiscal year 1999. However, much of this decrease is attributable to five reports providing
OIG's comments on the Corporation's corrective Action Plan and subsequent updates. As
required by Congress, OIG's reports were due within 30 days after the Corporation issued its
report. If these reports are removed from the mix, the timeliness of reports improved to an
average 214 days during the fiscal year.

                                                             31                           FY99 Semiannual Report No. 2
                          FY99 PERFORMANCE INFOMATION

           INVESTIGATIONS PERFORMANCE INFORMATION

The basic mission of the OIG investigative element is to lawhlly determine as many of the facts
as possible surrounding a given incident. The incident under review may include allegations of
criminal activity, allegations of non-criminal activity, or allegations that include both criminal
activity and non-criminal activity. The basic mission of the investigative element remains
unchanged regardless of the nature of the incident: determine as many facts as possible
surrounding a given incident. How an allegation is developed, i.e., reactively or pro-actively,
has no impact on the basic mission.

What occurs after the initial receipt of a complaint, allegation, or information that results in the
development of a complaint or allegation, varies, depending primarily upon whether the matter
is criminal or non-criminal, and if criminal, whether or not it is accepted by the Department of
Justice for prosecution.

All matters involving evidence of Federal criminal violations are referred to the Department of
Justice for a prosecutive decision. This does not mean that all allegations of Federal criminal
violations are referred; only those with evidence of a Federal criminal violation are referred, with
some exceptions. For example, all allegations of significant fraud and all allegations against
certain senior government officials are referred to the Department of Justice without regard to
the amount of evidence available at the time the allegations are received. The majority of the
criminal matters we investigate involving Corporation programs and operations are declined for
prosecution by the Department of Justice because of the low dollar amounts involved. We have
had no declinations of a criminal matter because of our inability to sufficiently develop evidence
of criminal misconduct.

Those matters that are determined to be non-criminal and those matters that have been declined
for prosecution by the Department of Justice are often referred to Corporation management for
administrative action. This administrative action might involve suspension or even removal of
an employee. Administrative action could also involve a redesign or refinement of a process or
system that was identified by our efforts as one that could be improved. When OIG refers such
matters to management, we usually request that management provide us a brief narrative of what,
if any, administrative action was taken as a result of the referral to them.

One other area that deserves mention involves those matters (criminal and non-criminal) that
OIG finds did not occur, did not occur as alleged, or were not within our purview. While some
of these matters are as important as a founded criminal investigation (and as such are identified
and reported separately), the majority are minor and are combined in one quarterly file, without
opening a separate investigative action. Regardless of the severity however, each matter requires
some degree of preliminary inquiry. The following table presents statistics on OIGYs
investigative workload.


                                                 32                     FY99 Semiannual Report No. 2
                     FY99 PERFORMANCE INFORMATION

                   INVESTIGATIONS PERFORMANCE STATISTICS



                                                     Fiscal Year




Investigative Actions Opened


Investigative Actions Resolved and
Closed



Average Monthly Caseload              Unknown   23


Investigative Matters Resolved
Without Opening a Separate            Unknown   48
Investigative Action


Referrals for Prosecution


Administrative or Management Action
Taken




                                        33                FY99 Semiannual Report No. 2
                           FY99 PERFORMANCE INFORMATION

                         Office of the Inspector General
                        Corporation for National Service
                     Summary of Obligations and Expenditures




                                                                      (Dollars in thousands)


Salaries and Benefits
Travel
Contracted Audit Services:
     Corporation Operations and Activities
        (includes the audits of CNS Financial Statements)
     Grant Audits and Reviews
     Reviews of CNS State CommissionsB
     Audits of CNS Contracts
Training
Supplies
Furniture and EDP Equipment
Other Office Support
Corporation Assessment for Administrative
Support and Rent

Total Obligations


A   This includes funding for both the 1997 and 1998 Financial Statement Audits.

    To be completed in fiscal year 2000.




                                                        34                   FY99 Semiannual Report No. 2
